USE OF INCOME DERIVED FROM THE
 COMMERCIAL DRIVER’S LICENSE
    INFORMATION SYSTEM FOR
         MODERNIZATION


  Federal Motor Carrier Safety Administration

        Report Number: MH-2008-059
         Date Issued: July 10, 2008
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Use of Income Derived                                  Date:    July 10, 2008
           from the Commercial Driver’s License
           Information System for Modernization
           Federal Motor Carrier Safety Administration
           Report No. MH-2008-059
  From:    Joseph W. Comé                                                        Reply to
                                                                                 Attn. of:   JA-40
           Assistant Inspector General
             for Highway and Transit Audits
    To:    Federal Motor Carrier Safety Administrator

           This report presents the results of the Office of Inspector General’s (OIG) audit of
           the amount and use of income derived from the Commercial Driver’s License
           Information System (CDLIS). The Federal Motor Carrier Safety Administration
           (FMCSA) is responsible for oversight of CDLIS, which is a nationwide
           clearinghouse of driving records for commercial drivers.

           The Commercial Motor Vehicle Safety Act of 19861 limited commercial drivers to
           a single driver’s license and required states to exchange information on
           commercial drivers through a nationwide information system. States use CDLIS
           to check the driving history of a commercial driver’s license (CDL) applicant
           before issuing the license and to report traffic convictions of commercial drivers
           licensed in other states. CDLIS contains records for each registered commercial
           driver with identification data, such as name, social security number, and date of
           birth. The records are linked to the licensing states where detailed driver records
           are located. When a driver is convicted of a disqualifying violation while driving
           a commercial vehicle, the state that issued the CDL must disqualify the driver.
           Because of the information CDLIS provides on disqualifying violations, it plays a
           critical role in keeping unsafe commercial drivers off the road.

           CDLIS is operated by the American Association of Motor Vehicle Administrators
           (AAMVA),2 under a 1988 operating agreement with the Department of

           1
               Pub. L. No. 99-570 (1986).
           2
               AAMVA is a non-profit organization of state motor vehicle officials who administer and enforce motor
               vehicle laws.
                                                                                                            2

Transportation (DOT). This agreement provides broad authority for AAMVA to
operate CDLIS but makes no mention of funding for the operation, maintenance,
or modernization of the system. Since becoming fully operational in 1992, CDLIS
has been supported by fees paid to AAMVA by states and other users. As of
February 2008, CDLIS had more than 13.4 million driver records. The states pay
AAMVA an annual $1.00 user fee for each CDLIS record. This fee covers
operating costs, such as leased line services, and allows users unlimited
transactions, such as changes in driver identification information and interstate
transfers of driver history records.

In August 2005, the Safe, Accountable, Flexible, Efficient Transportation Equity
Act: A Legacy for Users (SAFETEA-LU)3 authorized $28 million in grants for
fiscal years (FY) 2006 through 2009 to modernize CDLIS. Modernization is
intended to improve the security and effectiveness of CDLIS and to prevent
system degradation as usage and requirements grow.

In August 2006 and July 2007, FMCSA and AAMVA entered into grant
agreements to modernize CDLIS. FMCSA has awarded nearly $12 million to
AAMVA and plans to award $8 million in FY 2008 to the states to assist in
making their driver’s licensing information systems compatible with the
modernized CDLIS. FMCSA also plans to award the remaining $8 million to
AAMVA and the states in FY 2009. These grants will assist AAMVA and the
states in implementing modernized software by December 2010, as required.

Section 4123(f) of SAFETEA-LU requires that OIG conduct an audit to analyze
the amount and use of revenue derived from CDLIS user fees. This audit responds
to that requirement. The objectives of our audit were to: (1) determine how net
income should be used under the CDLIS modernization grant, (2) identify total
revenue derived from CDLIS user fees, the amount of related expenses AAMVA
incurred, and net income, and (3) determine how the net income was used.

To address our objectives, we compared AAMVA’s financial statements and
independent audit reports on the financial statements for FYs 2003 through 2005,
the period under audit. We examined, on a test basis, records supporting
AAMVA’s statements of CDLIS revenue and operating costs for the 3-year
period. We also examined legal issues governing the use of revenue CDLIS
generated during the SAFETEA-LU modernization grant period.4


3
    Pub. L. No. 109-59 (2005).
4
    SAFETEA-LU also requires that OIG (1) validate state-by-state CDLIS data, (2) determine the extent to
    which convictions are posted on commercial driver records, (3) make recommendations and develop a
    methodology for annually updating the baseline audit to ensure shortcomings in CDLIS are addressed,
    and (4) identify state-by-state actions necessary to improve the integrity of CDLIS data and to ensure the
    proper posting of convictions. We will address these remaining SAFETEA-LU requirements in a
    separate audit report.
                                                                                                           3

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States and we performed such tests as we considered necessary to detect
fraud, waste, and abuse. Exhibit A describes the scope of our audit and the
methodology we used to achieve our objectives.

RESULTS IN BRIEF
Our audit found that under the regulation governing Federal grants for
modernizing CDLIS, program income derived from CDLIS revenue and fees
during the grant project period must be used for operating and modernizing the
system. We calculated that AAMVA accrued net income derived from CDLIS
revenue and fees of $22.02 million for the 3 years ending on September 30, 2005.5
As of May 20, 2008, the date of our draft report, FMCSA and AAMVA had not
changed the treatment of CDLIS program income by completing a revision of their
1988 operating agreement to identify the modernization project period and to
identify the specific duties and responsibilities for each party.

However, in its June 20, 2008, written response to our draft report, FMCSA stated
that it had entered into a new Cooperative Agreement with AAMVA, on
June 9, 2008, to reflect the current programs, systems, and organizational changes
that occurred since the 1988 operating agreement was ratified. The new
Cooperative Agreement appears to address our finding that the treatment of
CDLIS program income must be changed to ensure that income derived from
CDLIS revenue and fees during the grant project period is used for operating and
modernizing the system, that provisions are made for states to pay for future
CDLIS enhancements, and that AAMVA accounts for and reports to FMCSA the
amount and use of program income from CDLIS. We commend FMCSA for
taking this needed action and going forward we will verify the provisions of the
agreement and its implementation.

AAMVA Must Change Treatment of CDLIS Program Income Under the
Modernization Grant. Since the inception of the 1988 operating agreement with
DOT, AAMVA has used CDLIS revenue to fund both CDLIS and non-CDLIS
programs and services. The operating agreement did not restrict AAMVA’s use of
CDLIS revenue. However, upon the August 2006 award of the grant to modernize
CDLIS, CDLIS became a grant-supported activity subject to the Federal
regulation known as the common rule.6

The common rule governs the use of program income, which is income earned
from grant-supported activities. The rule prescribes three options for using
5
    Our audit covered FYs 2003 through 2005, the three financial statement periods preceding our review.
6
    49 C.F.R. Part 19, “Uniform Administrative Requirements for Grants and Agreements with Institutions of
    Higher Education, Hospitals, and Other Non-Profit Organizations.”
                                                                                4

program income: (1) add the income to project-committed funds and use it to
further project objectives, (2) use the income to finance the non-Federal share of
the grant, and (3) deduct the income from total project allowable costs in
determining the net allowable costs on which the Federal share is based. The
common rule further requires that program income be deducted from the Federal
share, unless otherwise stated in the grant agreement.

At the time of our audit, FMCSA and AAMVA were negotiating a revised
operating agreement to identify the specific duties and responsibilities for each
party for the modernization project. Under the common rule, the project period
started upon award of the first modernization grant in August 2006. However,
FMCSA had not implemented the common rule pending completion of the revised
operating agreement. In addition, the project was 1 year behind schedule, due to
uncertainties regarding the use of CDLIS for complying with the Real ID Act of
20057 and coordination with the Department of Homeland Security (DHS). The
Real ID Act set minimum standards for state-issued driver’s licenses and requires
states to check documents presented to other states prior to issuing a driver’s
license. DHS and FMCSA are considering CDLIS as a potential platform for
verifying that a person does not hold more than one valid driver’s license.

According to FMCSA, making modernization changes without considering the
requirements of the Real ID Act would not be prudent. As a result, AAMVA has
drawn only $2 million in modernization grant funds to date. We realize the
importance of considering the impact of the Real ID Act on modernization, but to
comply with the provisions of the common rule, FMCSA and AAMVA must
finalize the operating agreement.

With the June 9, 2008, signing of a Cooperative Agreement, FMCSA must now
verify that AAMVA uses the funds to pay for CDLIS-related expenses only,
including modernization costs. This verification is important because CDLIS
must be self-sustaining. SAFETEA-LU requires that states pay for modernizing
CDLIS in the future.8 Therefore, the states must ensure that money is available
after the project period to pay for the costs of modernization. AAMVA has
realized net income from CDLIS operations in prior years, and future net income
could be retained in a reserve fund as a set-aside for CDLIS operations and
modernization.

For the 3 years ending on September 30, 2005, AAMVA calculated gross earnings
of $41.91 million, expenses of $24.23 million, and net income of $17.68 million
from CDLIS operations. However, based on our statistical and non-statistical
sample tests of AAMVA’s revenue and expenses, and supporting financial
records, we calculated net income of $22.02 million. Our net income calculation
7
    Pub. L. No. 109-13 (2005).
8
    49 U.S.C. § 31309(e)(3), amended by Pub. L. No. 109-59 § 4123 (2005).
                                                                               5

was $4.34 million more than AAMVA’s calculation because AAMVA could not
support $1.55 million for salary and overhead adjustments and did not include a
pro-rata share of its investment income calculated at $2.79 million. For example,
in its statement of CDLIS expenses, AAMVA included salaries and expenses that
had already been charged to CDLIS in overhead pools.

We found that AAMVA used $22 million in net income for the 3 fiscal years to
fund both CDLIS and non-CDLIS programs and services. For example, AAMVA
funded approximately $6 million for the National Motor Vehicle Title Information
System, which allows motor vehicle agencies to verify the validity of vehicle
ownership before issuing new titles and $5.4 million for various technology
applications and networking services to facilitate the electronic exchange of
information between jurisdictions.

We made two recommendations that focused on actions FMCSA needs to take to
ensure income earned from the operation of CDLIS is used to pay for CDLIS-
related costs only. Our full recommendations are listed on page 9.

In its June 20, 2008, comments to our May 20, 2008, draft report, FMCSA
concurred with our recommendations. FMCSA stated that it had taken steps to
implement both recommendations and provided specific details of the actions it
plans to take to address the recommendations. FMCSA’s comments and our
response are fully discussed on pages 9 and 10. FMCSA’s complete comments
are included in the Appendix to this report.

FINDING

AAMVA Must Change Treatment of CDLIS Program Income Under the
Modernization Grant

Under the regulation governing Federal grants for modernizing CDLIS, income
derived from CDLIS revenue and fees during the grant project period must be
used for operating and modernizing the system. As of May 20, 2008, FMCSA and
AAMVA had not completed revision of their 1988 operating agreement to identify
the modernization project period and to identify the specific duties and
responsibilities for each party. We calculated that AAMVA accrued net income
derived from CDLIS revenue and fees of $22.02 million for the 3 years ending on
September 30, 2005.

CDLIS Program Income Must Fund Only CDLIS-Related Expenses. Since
the inception of the 1988 operating agreement with DOT, AAMVA has used
CDLIS revenue to fund both CDLIS and non-CDLIS programs and services. The
operating agreement did not restrict AAMVA’s use of the CDLIS revenue.
However, upon award of the grant to modernize CDLIS in August 2006, CDLIS
                                                                                   6

became a grant-supported activity subject to the Federal regulation known as the
common rule. This rule governs the use of program income, which is income
earned from grant-supported activities. The common rule prescribes three options
for using program income: (1) add the income to project-committed funds and use
it to further project objectives, (2) use the income to finance the non-Federal share
of the grant, and (3) deduct the income from total project allowable costs in
determining the net allowable costs on which the Federal share is based. The
common rule further requires that program income be deducted from the Federal
share, unless otherwise stated in the grant agreement.

At the time of our audit, FMCSA and AAMVA were negotiating a revised
operating agreement to identify the specific duties and responsibilities for each
party for the modernization project. Under the common rule, the project period
started upon award of the first modernization grant in August 2006. However,
FMCSA had not implemented the common rule pending completion of the revised
operating agreement. In addition, the project was 1 year behind schedule, due to
uncertainties regarding the use of CDLIS for complying with the Real ID Act of
2005 and coordination with the Department of Homeland Security (DHS). The
Real ID Act set minimum standards for state-issued driver’s licenses and requires
states to check documents presented to other states prior to issuing a driver’s
license. DHS and FMCSA are considering CDLIS as a potential platform for
verifying that a person does not hold more than one valid driver’s license.

According to FMCSA, making modernization changes without considering the
requirements of the Real ID Act would not be prudent. As a result, AAMVA has
drawn only $2 million in modernization grant funds to date. We realize the
importance of considering the impact of the Real ID Act on modernization, but
compliance with the provisions of the common rule is imperative.

With the June 9, 2008, signing of a Cooperative Agreement, FMCSA must now
monitor AAMVA’s expenditures to verify that AAMVA uses grant funds and
program income to pay for CDLIS-related costs only, including current and future
modernization and system enhancements designed to reduce fraud. This
verification is important because CDLIS must be self-sustaining. SAFETEA-LU
requires that states pay for modernizing CDLIS in the future; therefore, states must
have funds available to pay for additional costs of modernization after the Federal
grant funds are spent. AAMVA has realized net income from CDLIS operations
in prior years, and future net income could be set aside in a reserve fund for
CDLIS operations and modernization.

AAMVA Generated Net Income From CDLIS. At the time of our review,
AAMVA’s consolidated financial statements for FYs 2003 through 2005 did not
segregate CDLIS operations from its overall operations. At our request, AAMVA
prepared a report of CDLIS revenue and expenses, using data from its accounting
                                                                                                  7

records. AAMVA’s calculation of CDLIS net income included adjustments for
salaries and overhead costs for some of its employees. According to its
calculations for the 3 years ending on September 30, 2005, AAMVA’s gross
income from operating CDLIS was $41.91 million, expenses were $24.23 million,
and net income was $17.68 million. However, we calculated net income from
CDLIS of $22.02 million, based on the results of our statistical and non-statistical
sample tests of AAMVA’s revenue and expenses and our review of supporting
financial records.

Our calculation of $22.02 million in net income was $4.34 million more than
AAMVA’s calculation of $17.68 million because AAMVA (1) could not support
$1.55 million for salary and overhead adjustments and (2) did not include a pro-
rata share of its investment income calculated at $2.79 million.

AAMVA Overstated Labor, Fringe Benefits and Overhead Costs. AAMVA
deducted indirect salaries, fringe benefits, and overhead expenses for
29 employees and members of the AAMVA Board of Directors who worked on
CDLIS programs. AAMVA claimed the 29 employees worked on CDLIS or
CDLIS-related programs, but did not charge time directly to those programs.

To verify this adjustment, we judgmentally selected and reviewed a sample of the
29 employees’ payroll records for 8 of the 78 pay periods in the 3-year period.
AAMVA’s adjustment included (1) the salary and fringe benefits in 2003 for one
employee who was not employed in 2003, (2) salaries for five employees that had
already charged time directly to CDLIS, and (3) salaries for six employees and
expenses for the Board of Directors that had already been charged to CDLIS in
overhead pools. Based on the results of our review of AAMVA’s payroll records,
we concluded that AAMVA overstated the salaries, fringe benefits, and overhead
costs by $1.55 million.

AAMVA’s calculation of net income for the 3-year period did not include a
$2.79 million pro-rata share of AAMVA’s investment income of $5.74 million.
AAMVA earned investment income on assets purchased with revenue generated,
in part, by CDLIS. We calculated the CDLIS investment income using the ratio of
CDLIS total gross income of $41.91 million to AAMVA’s total gross income of
$86.24 million from all sources, or 49 percent of the $5.74 million in investment
income that AAMVA reported. According to the Government Accountability
Office,9 grant-generated income includes investment income.

As shown in table 1, CDLIS revenue significantly exceeded CDLIS expenses for
the 3-year period, according to both OIG and AAMVA calculations.


9
    Government Accountability Office, Principles of Federal Appropriations Law, Vol. II, Chapter 10,
    10-89, GAO-06-382SP, (3rd ed., February 2006).
                                                                                                  8

               Table 1. CDLIS Net Income for 3-Year Period
                Ending September 30, 2005 ($ in millions)

                                   OIG’s Calculation*                             Difference in
                                                                    AAMVA’s        OIG and
 CDLIS Revenue and          FY        FY        FY        3-Year    Calculation    AAMVA
 Expenses                  2003      2004      2005        Total     (3 Years)    Calculations
 CDLIS Revenue            $13.29    $14.10    $14.52      $41.91      $41.91          $0.00
 CDLIS Expenses           (7.91)    (7.02)    (7.75)      (22.68)     (24.23)         1.55
 Prorated share of                                                      No
 Investment Income         1.12      0.71      0.96        2.79     calculation       2.79
  Total Net Income          $6.50      $7.79  $7.73       $22.02      $17.68         $4.34
*
  OIG calculation based on analysis of AAMVA’s records.

AAMVA’s Use of CDLIS Net Income. Our audit found that AAMVA used
approximately $22 million in net income for the three fiscal years to fund both
CDLIS and non-CDLIS programs and services. Under its 1988 operating
agreement with DOT, AAMVA used CDLIS income to purchase investments, set
up reserve funds, and fund both CDLIS and non-CDLIS programs and services.

AAMVA’s expenditures for non-CDLIS programs and services, for the 3 years
ending September 30, 2005, provided benefits to state safety programs. In
addition to operating CDLIS, AAMVA serves as an information clearinghouse for
motor vehicle administration, law enforcement, and highway safety issues.
AAMVA’s programs encourage uniformity and reciprocity among the states,
Canadian provinces, and liaisons with other levels of government and the private
sector. Specifically, AAMVA funded approximately:

    • $6.0 million for the National Motor Vehicle Title Information System,
      which inhibits title fraud and automobile theft by allowing motor vehicle
      agencies to verify the validity of ownership before issuing new titles.

    • $5.4 million for various technology applications and networking services to
      facilitate the electronic exchange of information between jurisdictions.

    • $3.8 million for government and public affairs, such as monitoring Federal
      and state legislative initiatives affecting the motor vehicle and law
      enforcement communities.

    • $3.8 million for programs to promote uniformity in issuing commercial and
      non-commercial driver’s licenses, testing and vehicle registration, and
      driver fitness.

    • $1.2 million for conference expenses and training for AAMVA members
      related to motor vehicle safety issues.
                                                                                9

   • $1.7 million for other programs, such as ID Security and AAMVA’s
     strategic planning process.

Although AAMVA had the flexibility to spend CDLIS program income on non-
CDLIS expenses in the past, the common rule requires that program income
derived from CDLIS revenue and fees during the modernization grant project
period must be used for operating and modernizing the system. As such, it is
imperative that the revised operating agreement identifies the specific duties and
responsibilities for each party. Additionally, FMCSA must verify that AAMVA
accounts for program income and uses the funds only to pay for the operation,
maintenance, and modernization of CDLIS.

RECOMMENDATIONS
We recommend that the FMCSA Administrator:
1. Amend the 1988 operating agreement to ensure that AAMVA:

   a. uses CDLIS program income in accordance with the common rule.

   b. makes provisions for a reserve fund or other funding vehicle for states to
      pay for future CDLIS enhancements.

2. Ensure that AAMVA accounts for and periodically reports to FMCSA the
   amount and use of CDLIS program income during the modernization project
   period, retroactive to August 2006.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
In its June 20, 2008, written comments to our draft report, FMCSA concurred with
our two recommendations and provided an action plan to address each of the
recommendations, including actions it had already initiated. FMCSA’s complete
comments to our recommendations are included as an Appendix to this report.
FMCSA agreed to take the following actions.
• Recommendation 1, FMCSA stated that it agreed to and signed a Cooperative
  Agreement with AAMVA on June 9, 2008. This agreement defined
  prescriptive requirements on AAMVA’s use of income derived from CDLIS.
  Consistent with the common rule, AAMVA will use program income to fund
  eligible CDLIS modernization project or program objectives and requirements
  described by the Cooperative Agreement, and will retain a portion of program
  income to fund future modernization efforts without funding from FMCSA.
                                                                             10

   These provisions will remain in effect as long as AAMVA is the designated
   operator of CDLIS.
• Recommendation 2, FMCSA stated that the Cooperative Agreement requires
  that AAMVA, by December 9, 2008, provide FMCSA a financial report on
  program income and expenditures from August 31, 2006, to June 30, 2008.
  Thereafter, AAMVA must provide FMCSA a quarterly financial report on
  program income and expenditures for eligible activities. Finally, AAMVA
  must provide FMCSA audited financial reports for each Federal fiscal year no
  later than January 31 of the following fiscal year.
We consider FMCSA’s current and planned actions for our two recommendations
to be responsive; and therefore, consider the recommendations resolved. We will,
however, continue to monitor the status of FMCSA’s implementation of our
recommendations, and the recommendations will remain open until FMCSA
completes its proposed actions.
We appreciate the courtesies and cooperation of FMCSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Kerry R. Barras, Program Director, at (817) 978-3318.
                                       #
                                                                                11


EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to: (1) determine how net income should be used under the
CDLIS modernization grant, (2) identify total revenue derived from CDLIS user
fees, the amount of related expenses AAMVA incurred, and net income, and
(3) determine how the net income was used.

We conducted this performance audit from August 2006 through May 2008 in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States and performed such tests as we
considered necessary to detect fraud, waste, and abuse.

We reviewed AAMVA’s financial statements and independent audit reports on the
financial statements for FYs 2003 through 2005. We analyzed AAMVA’s
subsidiary records for CDLIS revenue and operating costs and revenue expended
on non-CDLIS-related programs for this period. Further, we examined legal
issues governing the use of income generated by CDLIS through review of
pertinent public laws, the United States Code, and the Code of Federal Regulations
and through discussions with OIG and FMCSA attorneys.

We tested certain data fields in AAMVA’s FYs 2003 through 2005 CDLIS income
and expense transaction data base for data entry errors. To determine the accuracy
of documentation supporting CDLIS revenue and expenses, we selected a simple
statistical random sample of 70 AAMVA income and expense transactions for
fiscal years 2003 through 2005. We reviewed the 70 sample records for
(1) approval, (2) adequate support, (3) matching line items, (4) consistent account
numbers between schedule and supporting documents, and (5) duplicate
transactions. Based on the results of our tests for data entry errors and our
statistical sample of CDLIS transactions, we concluded that the data were
sufficiently reliable to meet our audit objectives.

In assessing the validity of AAMVA’s assertion that 29 employees spent a portion
of their time working on CDLIS or CDLIS-related programs but did not charge
time to CDLIS cost centers, we analyzed a nonstatistical sample of the timecards
for the 29 employees, covering 8 pay periods during the 3-year period under
review. We reviewed the employees’ payroll records and found that time charged
to CDLIS cost centers and overhead accounts had already been allocated to
CDLIS. We computed AAMVA’s overstatement of the additional salaries and
applied fringe benefits and overhead for the 3-year period. To calculate fringe
benefits and overhead applied to the overstated salaries, we used the rates
identified in AAMVA’s audited financial statements.




Exhibit A. Objectives, Scope, and Methodology
                                                              12



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


   Name                                   Title

   Kerry R. Barras                        Program Director

   Linda G. Morgan                        Project Manager

   David W. Brown                         Senior Analyst

   Carlton H. Hamilton                    Auditor

   Seth Kaufman                           Associate Counsel

   Harriet E. Lambert                     Writer-Editor

   Thomas K. Lehrich                      Chief Counsel

   Petra Swartzlander                     Statistician




Exhibit B. Objectives, Scope, and Methodology
                                                                                              13

APPENDIX. FMCSA COMMENTS



U.S . Department
                                                Memorandum
of Transportation

Federal Motor Carrier
Safety Administration


INFORMATION: Response to Office of
Inspector General's Report on Use of Income                     Date: JUN 20 2008
from the CDLIS for modernization

John H. Hill                                                    Reply to
Administrator                                                   Attn. of: MC-ESL

Joseph W. Come
Assistant Inspector General for
  Highway and Transit Audits

Thank you for your memorandum of May 20 transmitting the Office of Inspector General's
(OIG) report titled "Use of Income Derived from the Commercial Driver's License Information
System for Modernization." We have reviewed the report and are pleased to advise that the
Federal Motor Carrier Safety Administration (FMCSA) has initiated implementation of both
recommendations included in the report.

As referenced in the draft report, the FMCSA and the American Association of Motor Vehicle
Administrators (AAMVA) are working cooperatively to modernize the Commercial Driver 's
License Information System (CDLIS) to improve system effectiveness, address known
limitations, and prepare the system to accommodate future growth and new requirements.

Section 4123 of the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
for Users (SAFETEA-LU) authorized the modernization of CDLIS, which includes adding
additional security features, upgrading the communications network, integrating medical
certificate information, improving self-auditing capabilities, and providing for the electronic
exchange of expanded information needs. This law included an authorization of $28 million in
grants for fiscal years (FY) 2006 through 2009 for this purpose. The FY 2006 and FY 2007
funding of $5 million and $7 million was awarded to AAMVA for development costs. The FY
2008 funding of $8 million will be awarded to the States. The States and AAMVA are expected
to share the $8 million funding in FY 2009.

Concurrently, FMCSA and AAMVA have developed and entered into a new CDLIS Operation,
Management, Administration, and Modernization Cooperative Agreement to reflect current
programs, systems, and organizational changes since the original agreement was ratified . The
original agreement designating AAMVA as the operator of CDLIS was executed on December
21, 1988, and signed by representatives from the Federal Highway Administration (FHWA),
AAMVA, and AAMVAnet, Inc., a former affiliate of AAMVA. Since AAMVAnet, Inc. no




APPENDIX. FMCSA COMMENTS
                                                                                                14

longer exists and FHWA's CDLIS responsibilities have been transferred to FMCSA, a new
agreement was needed.

The recommendations offered by the GIG have enabled us to build upon our accomplishments
and forge new working relationships and a new operating agreement that is consistent with
FMCSA's and AAMVA's stewardship and oversight responsibilities of CDLIS.

Responses to Specific Recommendations Recommendation 1. Amend the 1988 operating
agreement to ensure that AAMVA:

        a. Uses CDLIS program income in accordance with the common rule.

        b. Makes provisions for a reserve fund or other funding vehicle for States to pay for
        future CDLIS enhancements.

Response: The new CDLIS Operation, Management, Administration, and Modernization
Cooperative Agreement agreed to, and signed on June 9,2008, by both parties provides very
prescriptive requirements on AAMVA's use of revenue derived from the operation of CDLIS.
The agreement defines CDLIS modernization program income as income earned by the AAMVA
beginning on the first day of the first month during which the new modernized CDLIS central site
is operational and continuing thereafter, as long as AAMVA is the FMCSA's designated operator
of CDLIS. Consistent with the common provisions, AAMVA will retain program income to
further fund eligible project or program objectives and requirements. The agreement also
provides that AAMVA retain a portion of program income to fund future modernization efforts
without funding from the FMCSA, to include all eligible activities associated with the following
functions:

        a. Maintaining the network, hardware, and software needed for the sending and receiving
        of messages including the additional information required by SAFETEALU, between the
        CDLIS Central Site and all of the jurisdictions;
        b. Providing assistance to States when problems occur with messages between States;
        c. Maintaining a problem reporting system to track known problems and the resolution of
        the problem;
        d. Providing updated information on problems to the FMCSA quarterly;
        e. Creating Structured Tests (A basic test, and specific tests as may be required by
        program and system changes);
        f. Performing Structured Testing with States (The basic test is to be performed at least
        once every 3 years. The basic test will be included with the specific tests, if it has been
        over 2 years since a State completed the basic testing);
        g. Maintaining documentation: State Procedures Manual, AAMVA Code Dictionary
        (ACD) Manual (uniform conviction and withdrawal codes), CDLIS System
        Specifications (or other documents that are created to support CDLIS), and Unified
        Network Interface (UNI) documentation as it applies to CDLIS;
        h. Providing training on CDLIS Documentation: State Procedures Manual, ACD Manual,
        CDLIS System Specifications and implementation documents;




APPENDIX. FMCSA COMMENTS
                                                                                                  15

        i. Providing training on UNI documentation as it applies to CDLIS;
        J. Maintain the CDLIS Central Site in accordance with Federal Security Standards; and
        k. Retaining a portion of program income to establish a fund designated for future
        modernization efforts.

In advance of the development and implementation of the modernized CDLIS, the agreement also
requires AAMVA to use any program income from CDLIS to fund eligible activities associated
with the operation and maintenance of existing CDLIS.

Recommendation 2. Ensure that AAMVA accounts for and periodically reports to FMCSA on
the amount and use of CDLIS program income during the modernization projects period
retroactive to August 2006.

Response: The new agreement requires that AAMVA provide a financial report within 6 months
of the execution of the agreement regarding the total revenues and expenditures of program
income by AAMVA since August 31,2006 to June 30, 2008. Thereafter, AAMVA will provide a
quarterly financial report to FMCSA regarding the total revenues and expenditures of the
program income by AAMVA on eligible activities as described in the agreement. Each report
shall be due no later than sixty calendar days of the last day of the quarter. In addition, AAMVA
will provide audited financial report for each Federal fiscal year no later than January 31st of the
following fiscal year.

We appreciate the work done by the OIG and the professionalism demonstrated by the audit team.
Please contact Mr. William A. Quade, Associate Administrator, Office of Enforcement and
Program Delivery, if you have any questions about the CDLIS modernization effort or the
agreement.




APPENDIX. FMCSA COMMENTS
